No.

IN THE
SUPREME COURT OF THE UNITED STATES

Tammy Horton. Pro Se
(Your Name)

— PETITIONER

VS.
Methodist University

— RESPONDENT(S)

PROOF OF SERVICE,
I. Tammy Horton - Petitioner. Pro Se
do swear or declare that on this date,
July 23,
,2020 , as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containingthe above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows*
Daniel M. Nunn and Christopher P. Raab of Caudle & Spears, P. A.
121 West Trade Street, Suite 2600
Charlotte, NC 28202
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

July 23

, 2020.

{(Signature)

